IN THE SUPREME COURT OF THE UNITED STATES

No. 19-1177

AMERICAN INSTITUTE FOR INTERNATIONAL STEEL, et al., Petitioners,

Vv.

UNITED STATES, e/ al., Respondents.

CERTIFICATE OF SERVICE

I, Richard Samp, counsel for amicus curiae The New Civil Liberties Alliance (NCLA)

and a member of the Bar of this Court, hereby certify that on this 27th day of April, 2020, a copy

of the brief of NCLA as amicus curiae in support of Petitioners was sent via email to the

following:

Noel J. Francisco, Solicitor General
U.S. Department of Justice

850 Pennsylvania Ave., NW
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
202-514-2217

Alan B. Morrison

George Washington Law School
2000 H Street NW

Washington, DC 20052
abmorrison@law.gwu.edu
202-994-7120

I further certify that three paper copies of the brief were deposited in the U.S. Mail,

addressed to the Solicitor General.

bby e

Richard A. Samp
New Civil Liberties Alliance
1225 Nineteenth Street, NW
Washington, DC 20036
202-869-5210

  
